           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE SOCIAL SECURITY ADMINISTRATION’S
          IMPLEMENTATION OF
     INTERNET PROTOCOL VERSION 6

      August 2008    A-14-08-18064




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      August 27, 2008                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Implementation of Internet Protocol Version 6
           (A-14-08-18064)


           OBJECTIVE

           The objective of this review was to evaluate the compliance of the Social Security
           Administration’s (SSA) implementation of Internet Protocol Version 6 (IPv6) with
           Federal standards and guidelines.

           BACKGROUND

           Internet Protocol (IP) is the “language” and set of rules computers use to communicate
           with one another over the Internet. The protocol that supports the Internet today -
           Internet Protocol Version 4 (IPv4) – provides approximately 4 billion 1 IP addresses
           worldwide. This limits the number of devices that can be given a unique Internet
           address. IPv6 will provide exponentially more 2 IP addresses that will be essential to the
           continued growth of the Internet and the development of new applications that leverage
           mobile Internet connectivity. Although the information technology (IT) community has
           worked around this IP address shortage in the IPv4 environment, the community views
           IPv6 as the true, long-term solution to the shortage. As such, the Federal Chief
           Information Officer (CIO) Council Architecture and Infrastructure Committee
           recommended 3 that Federal agencies (including SSA) prepare for the future of
           networking and Internet technology by enabling their networks to support IPv6.




           1
               IPv4 provides about 4,300,000,000 addresses.
           2
            IPv6 provides about 340 undecillion or 340,282,366,920,938,463,463,374,607,431,768,211,456
           addresses.
           3
            “IPV6 Transition Guidance” was issued by the Federal CIO Council Architecture and Infrastructure
           Committee in February 2006.
Page 2 - The Commissioner


On August 2, 2005, the Office of Management and Budget (OMB) issued guidance 4 on
transitioning to IPv6 and established a June 30, 2008 deadline by which all agencies’
          5               6
networks must be using IPv6.

On February 22, 2007, the National Institute of Standards and Technology (NIST)
issued draft guidance 7 to assist Federal agencies in the implementation of IPv6. This
guidance defines standards for IPv6 that include a list of common network devices and
                                                                  8
their minimal capabilities. The standards address host devices, routers, and network
protection devices (including firewalls and intrusion detection/prevention devices that
examine and selectively block or modify network traffic). As such, every device
connected to the network will be impacted.

Over the past several years, the Internet Engineering Task Force (IETF) 9 and Federal
CIO Council Architecture and Infrastructure Committee 10 have provided additional
guidelines 11 to further assist in the successful implementation of IPv6.




4
    OMB Memorandum M-05-22, Transition Planning for Internet Protocol Version 6, August 2, 2005.
5
  The deadline applies to the network backbone (also referred to as the core network) only. The backbone
(core) is the part of the network infrastructure that connects sub-networks to provide a path for
exchanging data. For SSA, the core network connects the National Computer Center and the six Remote
Operation Communication Centers.
6
  To be using IPv6, agencies must have their network backbone (core) operating in a dual stack (IPv4 and
IPv6) or in a pure IPv6 mode that is IPv6-compliant and configured to carry operational IPv6 traffic.
Throughout this document implementation will denote using IPv6 on the network backbone in a dual-stack
environment.
7
 NIST, Special Publication (SP) 500-267 (Draft), A Profile for IPv6 in the U.S. Government - Version 1.0.
The draft was issued on February 22, 2007. Draft 2 was issued on January 23, 2008.
8
 Host devices are nodes that are not routers. A node is a point in a network at which lines intersect or
branch, a device attached to a network, or a terminal or other point in a computer network where
messages can be created, received, or transmitted.
9
  The IETF is a large, open international community of network designers, operators, vendors, and
researchers concerned with the evolution of the Internet architecture and the smooth operation of the
Internet; its works are referenced in Federal CIO Council guidelines.
10
  The Federal CIO Council Architecture and Infrastructure Committee develops policy, direction, and
guidance in concert with the Federal Enterprise Architecture Program Management Office in OMB to drive
business process improvement, investment management, and technical decisions.
11
   IETF, Request for Comment (RFC) 3513, IPv6 Addressing Architecture, April 2003; IETF RFC 3587,
IPv6 Global Unicast Address Format, August 2003; IETF RFC 4057, IPv6 Enterprise Network Scenarios,
June 2005; CIO Council, IPv6 Transition Guidance, February 2006; Federal CIO Council Architecture and
Infrastructure Committee, Demonstration Plan to Support Agency IPv6 Compliance, January 28, 2008.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA implemented IPv6 12 and met the Federal standards and guidelines. On
December 10, 2007, SSA performed tests that demonstrated its network backbone
(core) was capable of transporting 13 IPv6 traffic. Furthermore, SSA provided the
required IPv6 documentation to OMB on February 28, 2008, 4 months ahead of the
June 30, 2008 deadline.

Additionally, after SSA completed its initial IPv6 implementation, it took the initiative to
work with the Internal Revenue Service, the Veterans Administration, and NIST to build
an IPv6 data exchange mechanism to send and receive IPv6 data. Each participating
agency will be able to demonstrate its ability to exchange data with an external partner
using IPv6 capabilities. This testing should facilitate SSA’s continued implementation of
IPv6. In the future, SSA needs to ensure it continues to purchase IPv6-compliant
equipment per NIST standards.

Compliance with IPv6 NIST Standards
                  14
NIST standards require that SSA purchase IPv6-compliant equipment. SSA’s phased
implementation of IPv6 15 allows it to introduce IPv6 capability to the network
environment through its normal, planned-technology refresh cycles, avoiding a
substantial initial cost. Although SSA is ready to implement IPv6, it still needs to
operate in an IPv4 environment because it has a significant number of devices that
                                                   16
work under IPv4. Therefore, SSA acknowledges that IT assets and systems
procured, developed, or acquired must be able to operate in both IPv6 and IPv4
environments. 17




12
  Federal CIO Council Architecture and Infrastructure Committee’s Demonstration Plan to Support
Agency IPv6 Compliance, issued January 28, 2008 (pp. 2 and 3).
13
     SSA is capable of receiving, processing and forwarding IPv6 traffic.
14
  NIST, SP 500-267 (Draft), A Profile for IPv6 in the U.S. Government - Version 1.0, Draft 2 dated
January 23, 2008, page 3 states: “This publication seeks to assist Federal Agencies in formulating plans
for the acquisition of IPv6 technologies. To achieve this, we define a standards profile for IPv6 in the USG
that is intended to be applicable to all future uses of IPv6 in non-classified, non-national security federal IT
systems.”
15
  Phase 1: Network Core IPv6 Capability, was expected to be accomplished by June 2008. Phase 2:
Extranet IPv6 Capability is expected to be accomplished by the end of Fiscal Year (FY) 2009/early
FY 2010, and Phase 3: Edge-to-Edge IPv6 Capability is expected to be done in FY 2011/2012.
16
     IPv6 Integrated Project Plan, February 27, 2006.
17
     This is considered a dual-stack environment.
Page 4 - The Commissioner


As the Agency moves forward, it needs control measures in place to ensure any new IT
assets work with both IPv6 and IPv4 systems. This minimizes the cost of the Agency-
wide conversion to IPv6 by ensuring that relevant IT products are procured or
developed and are capable of operating in both environments.

As part of SSA’s IPv6 Integrated Project Plan, the Agency ensured it was complying
with NIST, the IETF, and Federal CIO Council Architecture and Infrastructure
Committee guidelines. These guidelines serve as the Agency’s strategic planning for
future acquisitions of networks that will be operational in 2010 and beyond.

CONCLUSION AND RECOMMENDATIONS
We found SSA appropriately implemented IPv6 in accordance with Federal standards
and guidelines. In the future, SSA plans to complete the transition to IPv6 while taking
into consideration the costs and impacts on business operations. Therefore, we
recommend SSA:

1. Continue to ensure all additional IT products that are procured or developed are
   capable of operating in IPv6 networks to minimize further cost to the Agency during
   its transition.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendation. See Appendix C for the full text of the Agency’s
comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
CIO    Chief Information Officer
EA     Enterprise Architecture
FEA    Federal Enterprise Architecture
FY     Fiscal Year
IETF   Internet Engineering Task Force
IP     Internet Protocol
IPv4   Internet Protocol Version 4
IPv6   Internet Protocol Version 6
IRM    Information Resources Management
IT     Information Technology
NIST   National Institute of Standards and Technology
OCIO   Office of the Chief Information Officer
OMB    Office of Management and Budget
OS     Office of Systems
PMO    Project Management Office
RFC    Request for Comment
SP     Special Publication
SSA    Social Security Administration
                                                                     Appendix B

Scope and Methodology
Our objective was to evaluate the Social Security Administration’s (SSA)
implementation of Internet Protocol Version 6 (IPv6) and its compliance with Federal
standards and guidelines.

To meet our objective, we examined SSA’s Office of Management and Budget (OMB)
documentation, project plans, and assessments as well as its progress report on the
IPv6 implementation. Specifically, we examined:

   •   IPv6 Phase 2 Network Inventory, February 28, 2006.
   •   IPv6 Business Impact Assessment, February 27, 2006.
   •   IPv6 Integrated Project Plan, February 27, 2006.
   •   IPv6 Progress Status Report, February 27, 2006.
   •   SSA Enterprise Architecture Transition Strategy for 2007 through 2012
       (Version 2.0), February 28, 2007.
   •   IPv6 Capability Inventory for Routers, Switches & Firewalls, October 19, 2005.
   •   SSA’s OMB submission from the Chief Information Officer (CIO) identifying a
       lead for the IPv6 initiative, November 10, 2005.
   •   OMB's "Federal Enterprise Architecture (FEA) Program Management Office
       (PMO) Assessment for Social Security Administration (SSA) Q2 FY2006 –
       March 2006," April 27, 2006 and OMB's "FEA PMO Enterprise Architecture (EA)
       Assessment for Social Security Administration (SSA) Q2 FY2007 – March 2007,"
       November 19, 2007.
   •   OMB's FEA PMO Quarterly Reports for June 1, 2007; September 1, 2007; and
       December 1, 2007.
   •   Social Security Administration Network Core IPv6 Capability Demonstration
       report, December 10, 2007.

We also reviewed the following:

   •   OMB Memorandum M-05-22, Transition Planning for Internet Protocol Version 6
       (IPv6), August 2, 2005.
   •   IPv6 Transition Guidance, CIO Council, Federal CIO Council Architecture and
       Infrastructure Committee, February 2006.
   •   Demonstration Plan to Support Agency IPv6 Compliance, Federal CIO Council
       Architecture and Infrastructure Committee, January 28, 2008, Version 1.0.



                                          B-1
    •   National Institute of Standards and Technology Special Publication 500-267
        (Draft), A Profile for IPv6 in the U.S. Government – Version 1.0, Draft 1 dated
        January 2007 and Draft 2 dated January 23, 2008.
    •   Internet Protocol Version 6 -- Federal Government in Early Stages of Transition
        and Key Challenges Remain, General Accountability Office, June 2006.
    •   Router Security Configuration Guide Supplement - Security for IPv6 Routers,
        National Security Agency, May 23, 2006.
    •   SSA’s Information Resources Management (IRM) Strategic Plan Fiscal
        Year 2007.

We interviewed representatives from the following SSA components.

•   The Office of the Chief Information Officer (OCIO) directs and manages SSA's
    enterprise information technology security program. This includes establishing
    Agency-wide security policies, managing the reporting, and monitoring processes to
    ensure compliance.
•   The Office of Systems (OS), Office of Telecommunications and Systems Operations
    researches network prototypes, performs testing of new network technologies, and
    implements and monitors network standards.
•   OS, Office of Enterprise Support, Architecture and Engineering, modifies the EA for
    the day-to-day operations. The EA may require additions, alterations, and
    improvements to not only meet the requirements set forth by OMB directives but to
    accurately reflect the architectural products being used to manage IRM resources.

We performed our field work in SSA Headquarters from November 2007 through
March 2008. We determined the information used in this review was sufficiently reliable
to meet our audit objectives. The audited entities were the OCIO and OS. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                            B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      August 19, 2008                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster        /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Implementation of Internet Protocol Version 6” (A-14-08-18064)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S IMPLEMENTATION OF
INTERNET PROTOCOL VERSION 6” (A-14-08-18064)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

“Continue to ensure all additional information technology (IT) products that are procured or
developed are capable of operating in Internet Protocol Version 6 (IPv6) networks to minimize
further cost during its transition.”

Comment

We agree. As part of the IPv6 implementation initiative, we developed policies and procedures
that are closely tied to the National Institute of Standards and Technology publication of IPv6
technical profiles. The content of both the policies and the procedures will establish
consideration of IPv6 capability for relevant IT products and components. We are currently
reviewing the documents for final approval. We are developing similar procedures for
micropurchases. We believe these actions will ensure that the introduction of IPv6-based
technology is cost-effective for the agency.




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Information Technology Audit Division (410) 965-9702

   Mary Ellen Moyer, Acting Audit Manager (410) 966-1026

Acknowledgments

In addition to those named above:

   Jan Kowalewski, Senior Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-08-18064.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
